<html>
<title> - HOME HEATING CRISIS</title>
<body><pre>[Senate Hearing 110-822]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-822

                          HOME HEATING CRISIS

=======================================================================

                             FIELD HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                                   ON

 EXAMINING THE HOME HEATING CRISIS, FOCUSING ON THE RESPONSIBILITY OF 
 OUR NATIONAL GOVERNMENT TO RESPOND TO THE NEEDS OF FAMILIES THAT ARE 
                  FACING ENORMOUS PERSONAL CHALLENGES

                               __________

                     JANUARY 17, 2008 (BOSTON, MA)

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                                 senate




                  U.S. GOVERNMENT PRINTING OFFICE
40-381                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office  Internet: bookstore.gov Phone: toll free (866) 512-1800 
Fax: (202) 512-2250  Mail: Stop IDCC, Washington, DC 20402-0001










          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

               EDWARD M. KENNEDY, Massachusetts, Chairman

CHRISTOPHER J. DODD, Connecticut     MICHAEL B. ENZI, Wyoming,
TOM HARKIN, Iowa                     JUDD GREGG, New Hampshire
BARBARA A. MIKULSKI, Maryland        LAMAR ALEXANDER, Tennessee
JEFF BINGAMAN, New Mexico            RICHARD BURR, North Carolina
PATTY MURRAY, Washington             JOHNNY ISAKSON, Georgia
JACK REED, Rhode Island              LISA MURKOWSKI, Alaska
HILLARY RODHAM CLINTON, New York     ORRIN G. HATCH, Utah
BARACK OBAMA, Illinois               PAT ROBERTS, Kansas
BERNARD SANDERS (I), Vermont         WAYNE ALLARD, Colorado
SHERROD BROWN, Ohio                  TOM COBURN, M.D., Oklahoma

           J. Michael Myers, Staff Director and Chief Counsel
                 Ilyse Schuman, Minority Staff Director

                                  (ii)











                            C O N T E N T S

                               __________

                               STATEMENTS

                       THURSDAY, JANUARY 17, 2008

                                                                   Page
Kennedy, Hon. Edward M., Chairman, Committee on Health, 
  Education, Labor, and Pensions, opening statement..............     1
Coard, Robert, President of ABCD, Action for Boston Community 
  Development, Boston, MA........................................     3
Gilliam, Margaret, Resident of Dorchester, MA....................     5
Colby, Diane, Resident of Lynn, MA...............................     6
Strollo, Beth Ann, President, Massachusetts Association for 
  Community Action, Quincy, MA...................................     7
    Prepared statement...........................................    10
Wolfe, Mark, Executive Director, National Energy Assistance 
  Directors' Association, Washington, DC.........................    12
    Prepared statement...........................................    15

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Sanders, Bernard, a U.S. Senator from the State of Vermont, 
      prepared statement.........................................    27
    Collins, Susan, a U.S. Senator from the State of Maine, 
      prepared statement.........................................    28

                                 (iii)

  

 
                          HOME HEATING CRISIS

                              ----------                              


                       THURSDAY, JANUARY 17, 2008

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                        Boston, MA.
    The committee met, pursuant to notice, at 11:30 a.m. in the 
Cass Room of Action for Boston Community Development, 178 
Tremont Street, Hon. Edward M. Kennedy, chairman of the 
committee, presiding.
    Present: Senator Kennedy.

                  Opening Statement of Senator Kennedy

    The Chairman. Thank you. We will come to order.
    I am the Chairman of the Health, Education, Labor, and 
Pensions Committee of the U.S. Senate that is concerned about 
the challenges of working families, it's concerned about 
education, concerned about health, concerned about our seniors. 
It does have responsibilities in other areas as well, research 
programs, pensions, and others, but most of all, it is the 
committee that carries the focus most about the quality of life 
of working families, and I am fortunate to be the chairman of 
it, and the information that we have today will be printed and 
shared with our colleagues as part of a continuing process of 
the listening to what is happening across America today, in 
Boston, in Quincy, and the Greater Boston area, the families 
that are facing what I consider to be a perfect storm of 
adversity.
    Today we are focused on fuel assistance and the failure of 
our Nation to respond to the needs of families that are facing 
enormous personal challenges, very real challenges in terms of 
their health, whether they can stay healthy, whether they have 
to make choices between prescription drugs for their children, 
whether they can purchase the food which is nutritious for 
their children. Working families across this Nation are facing 
a perfect storm, and the perfect storm is with the challenges 
of recession that we are facing here in Massachusetts, here in 
Boston, Quincy, all across the Greater Boston area, all across 
Massachusetts, New England, and the country, and the failure of 
our government, of this Administration to meet its 
responsibilities in terms of home heating oil. That is what we 
are basically facing.
    Yesterday, in the U.S. Senate, as a member of the Joint 
Economic Committee, we heard from economists that talked about 
the recession and the need to take action now to help working 
families, hardworking families all across our Nation, and we 
are committed to doing that; I am, and we are, in the U.S. 
Senate. That's enormously important. It's related to the 
subject matter that we're talking about today. It's a part of 
this whole challenge that families are facing, and it's 
important that we are, as a country, going to recognize it.
    Today, we are focused on the failure of our national 
government, this Administration, to meet the responsibilities 
that we have toward families that are hard-pressed to provide 
one of the most basic necessities of life, and that is a warm 
home. We also recognize that for many of those that are trying 
to provide a warm home for their families, for their 
grandchildren, for their children, for senior citizens, many of 
them, after they scrape together enough resources to purchase 
some heating oil, are looking over their shoulder at their 
mortgage. Two hundred-thousand Americans are going to lose 
their home this month. With the escalation of the mortgages, 
families are faced with this double whammy, and they are also 
faced with the challenges of access to food, the food banks. 
Shelves, in many instances, are bare. They are failing to 
provide the kind of support and assistance that we have seen 
here in Boston. As one who has been a strong supporter of that 
program, we know the challenges that we are facing.
    So real people are hurting. Real people are hurting. Real 
people that are playing by the rules every day, who have worked 
hard, saved, tried to provide for their children are hurting, 
and we and Members of the Congress, we who are your 
representatives in the Senate of the United States have a 
responsibility. We have a responsibility to try and end a war 
that we never should have fought in, but we also have a 
responsibility and a budget that is $2.8 trillion, to be able 
to say that we ought to be able to find sufficient resources to 
help and assist people that are in critical need. That is part 
of the American dream. The budgeting for this country is a 
matter of priorities and it is what we think is important for 
people. This is one U.S. Senator, as well as my colleagues, 
John Kerry, and Bernie Sanders, my neighbor from Vermont, who 
hoped to have been here, would have been here yesterday, if the 
schedule had worked out, and I know I speak for all of my 
colleagues from New England. We are strongly committed to doing 
something about it. We made some progress yesterday. I think 
the Administration listened to Diane and Margaret and Beth Ann. 
I think they might have heard what they are going to say today 
and said, ``Well, we're going to start out a little process,'' 
and provided some resources. That said, ``Too little and too 
late,'' but we'll take it, and use it effectively. We'll hear 
more about that.
    I am enormously grateful to welcome Robert Coard, who has 
been a long-time friend, and to thank him so much for opening 
up this facility here today and to welcome us. We are fortunate 
to have had his leadership over many, many years. I've enjoyed 
working with him. He's been really the heart and soul of 
dealing with the challenges of many needy people. He's not only 
in fuel assistance, he's been out there in terms of educational 
opportunities for underserved communities. He's been a valued 
and real friend. Bob, I want to thank you. If you have a word 
to say, we would be glad to hear from you.

STATEMENT OF ROBERT COARD, PRESIDENT OF ABCD, ACTION FOR BOSTON 
                     COMMUNITY DEVELOPMENT

    Mr. Coard. Thank you. Thank you very much, Senator.
    We at ABCD, it is to us a great pleasure and an extremely 
great privilege to welcome our outstanding senior Senator from 
Massachusetts, U.S. Senator Edward M. Kennedy, to Boston and to 
ABCD today.
    We consider Senator Kennedy the champion of the poor, the 
vulnerable, and the future of our citizens in the United 
States. We are extremely glad to see him, as usual, at any 
time. He does a fantastic job. I really would like us to give 
him a hand. Another round of applause.
    [Applause.]
    We very much appreciate his taking the time and the effort 
to hold this important Senate field hearing here in Boston to 
gather information and to draw attention to the critical issue 
of home heating capability for low-income and elderly and 
working poor families in Massachusetts and particularly across 
the cold mountain tier of the United States.
    As a result of just even announcing the hearing, the 
Administration released not the full emergency contingent 
amount of $586 million, but they released $450 million of it 
yesterday, just before the hearing.
    The Chairman. There's a little more in there, too, Bob.
    [Laughter.]
    Mr. Coard. Right.
    We also welcome the other Senate hearing witnesses to ABCD 
itself, and we thank the members of the press for being here to 
carry this important story.
    I want to acknowledge the Chair of the ABCD Board. Will you 
stand so the folks can recognize you.
    [Applause.]
    A very important citizen of South Boston, and she has been 
involved in the ABCD program since she was 17 years old. Of 
course, that's only 2 days ago.
    [Laughter.]
    I will make just a few brief points regarding the Fuel 
Assistance Program and its important role in the lives of 
struggling-to-survive persons in the cold New England winter.
    First of all, this year is not like other years. In more 
than 35 years of providing fuel assistance ABCD has been 
involved with, this is by far the worst winter we've seen for 
the poor, the elderly, disabled, and vulnerable and working 
families in Massachusetts.
    The reason is two-fold. First, heating oil has now gone up 
50 percent to $3 per gallon from last year, and it's at the 
highest price in history. Natural gas and electricity are not 
very far behind.
    Second, this is a very cold winter, based on the Degree-Day 
System which oil companies use to make deliveries.
    At this point, all of the 15,000 families served by the 
ABCD Fuel Assistance Program have used up their benefits and 
have nowhere to turn. We serve not only Boston but we serve 
Brookline and Newton with our program.
    Yesterday, President Bush released the $450 million of $586 
million available, and Massachusetts will get $27.2 million, 
according to the allegations worked out by the State. With that 
funding, we will make a 100-gallon delivery to our eligible oil 
customers. If we gave only what would amount to 65 gallons, the 
oil companies would refuse to do that. They want to deliver at 
least 100 gallons. That's $300 these days. That 100 gallons 
will cost $300 and will provide a family with heat for about 2 
to 3 weeks at the most. It is clear that more help is needed 
for them to get through this winter.
    In 2005, when the LIHEAP Program was reauthorized by 
Congress, $5.1 billion annually was promised and voted by the 
Congress and signed by the President. It was based on 
documented need. Despite that commitment, Federal funding 
nationwide has been less than $2 billion a year, and that 
amount has proved completely inadequate in the face of soaring 
fuel prices, which have gone up consistently every single year. 
We need this program to be funded at the full $5.1 billion 
level.
    Two-thirds of the families we serve in the ABCD Fuel 
Assistance Program have take-home salaries of $1,000 to $1,500 
per month, and a full tank of oil cost almost $900 these days. 
You do the math. How can people pay high Boston rent, feed 
their families, pay for needed medication, and also put oil in 
their tank every single month? It's impossible. It's the reason 
why children in Head Start--according to the Boston Medical 
Center, a study recently--are losing weight in the winter 
months. It's the reason why our older residents, who work all 
their lives, take their diabetes medicine every other day these 
days to stretch it out and to their very immediate error. It's 
the reason we have tragic and avoidable fires from space 
heaters every single winter. It's the reason working families 
fall behind in their rent, get evicted from their apartments 
and end up in homeless shelters or hotels where the cost to the 
taxpayer is far more than a tank of oil. A study by UMass 
showed that ending up in the shelters cost--if a person is in 
there for the whole year, which many are--$32,800 a year. 
That's much more than a tank or so of oil.
    In this Nation in the 21st century, we should not have 
children, older residents, and working people cold and hungry 
in their homes in the bitter New England weather.
    Thank you so much. And thank you again, Senator Kennedy.
    The Chairman. Thank you, Bob. We're always glad to hear 
from you and we are very grateful for your summation--
enormously important.
    We are going to hear from some very special guests this 
morning. We will hear from two: Margaret Gilliam, senior 
citizen, fuel aid recipient from Dorchester, and then Diane 
Colby, a single parent, fuel aid recipient in Lynn, MA.
    I think the one part that we ought to understand at the 
outset, people will be watching and listening to these two 
extraordinary women and say, ``Well, you've looked around and 
finally found two individuals.'' I think both of them can tell 
you that they speak for their neighbors. They speak for their 
friends. They speak for their community. We could have had a 
room filled with people that could tell similar kinds of 
stories. We certainly have those letters in my office here in 
Boston and also in Washington, and we certainly know that they 
are really speaking for so many people in Massachusetts and 
really throughout the country. We are very fortunate to welcome 
them.
    Why don't we start with you, Margaret.

   STATEMENT OF MARGARET GILLIAM, RESIDENT OF DORCHESTER, MA

    Ms. Gilliam. Good morning, everyone.
    I consider Mr. Coard, a very dear friend, a savior. I have 
been involved with assistance from this organization since 
caring for six of my seven grandchildren. Fortunately, for the 
past 12 years, I was living in government housing, which 
included heat. These recent 12 years, I have been residing in a 
private family home. It's a two-family home. I do have to 
supply my own heat. Again, through ABCD, I was qualified to 
receive the oil assistance. I received my first delivery the 
first week of December. The amount afforded me was $435. The 
first delivery came to $430. That lasted like 3 weeks, because 
it wasn't really that cold at that particular time.
    The oilman doesn't want to carry anyone, because he can't 
afford to. It cost him to stay in line in Chelsea, or wherever 
he has to go and pick up his oil to deliver it to our home, so 
it's like, ``I'll carry you for a week, please pay me the 
following week.'' If you don't have it, you don't get a 
delivery. With what little moneys I can reserve from my once-a-
month check, Social Security check, I offer to just have 50 
gallons delivered for each delivery, and I pay him. That leaves 
me kind of short. I still have two grandchildren at home. I 
have to pay rent. They need some assistance as far as getting 
through school, and other resources. Our Christmas this year 
was very, very light, but they didn't mind. They knew that we 
would be married to the oilman from now until April.
    Two weeks ago, I was really kind of desperate and I really 
needed to call someone. I called ABCD and I told them what my 
dilemma was--I didn't have money to call my oilman--and she re-
directed me to another source, and they came and delivered 200 
gallons of oil. They left a slip in my door, and when I saw the 
slip, I almost fainted. For 200 gallons of oil the cost was 
$630. Right now, I probably have about 100 gallons of oil left 
in my tank, and I am really nursing it like there is going to 
be another tomorrow. Where do I go after next week? I will call 
ABCD, hoping that they will be able to give me at least 100 
gallons. I probably will be counting on that, because there's 
no other resources that I can go to, because everyone is, you 
know, handing out moneys for other people. I'm not the only 
one. You know, I'm not ready for a senior citizen building, 
because they do supply your heat. I love my comfort of a two-
family home. It is quite private. My children are happy. I just 
don't need to have this kind of concern, because it is mind-
boggling after a while, and I can feel myself getting very 
anxious. And there's a long ways to go yet from January until 
April.
    The Chairman. This anxiety--you know, often we find a 
society that knows the cost of everything but fails to realize 
the cost of anxiety, fear, and frustration, the lost sleep that 
you've had, the fact--and we're going to hear from Diane, who 
was talking to us earlier about that, you know, the chill in 
the air in the early morning, you know, when you're trying to 
get those children up and getting them dressed so they can get 
out to school, wondering whether that room was warm enough for 
those children or whether they're going to catch cold. All of 
that is a wearing factor on people. We don't see it measured in 
terms of the cost of the heating oil or the oil itself, but it 
is something that's very real, and it's happening to people. We 
have to ask ourselves whether that is necessary when they're 
having these record profits of the oil companies, when they're 
all having this--I mean, they ought to be able to make a fair 
profit, but these record profits, and no--very little voice to 
try and do anything about it. Who ends up paying for it? We 
just heard from Margaret.
    Thank you, Margaret. We'll come back.
    Diane, can you tell us a little.

         STATEMENT OF DIANE COLBY, RESIDENT OF LYNN, MA

    Ms. Colby. I am Diane Colby from Lynn, MA, and I am a 
single mother raising two daughters, elementary school age and 
junior high. Just that the fuel assistance hasn't gone as far 
as it used to go because of the price of oil. One hundred 
gallons, like you said, is $300. It goes about 2 weeks. And 
that's keeping it at a very conservative 62 degrees. Just like 
I said, getting up in the morning----
    The Chairman. Sixty-two degrees is pretty cold.
    Ms. Colby. Yes, we keep it down. I keep it down.
    The Chairman. Which is pretty cold.
    Ms. Colby. Isn't that the truth. We keep it down to 62 to 
63 degrees, and that's the normal, keeping it down. Just 
worrying, when you do run out, where will you get more oil, and 
the fuel assistance is gone; it just goes really fast now 
because of the prices. It's just like you said, getting up in 
the mornings, my biggest worry with my kids, you know, having 
oil. Even at night, just being home watching TV and it's cold 
when you get up.
    That's my concern. You may have to go not paying a bill, 
another bill, to save. You might skip another bill when you pay 
that----
    The Chairman. Tell us a little bit that. You were 
mentioning that earlier, that sometimes you feel that you have 
to pay that heating oil bill and you pass up on some of these 
other----
    Ms. Colby. Yes, I'll skip a phone bill or an electric bill 
a month or so just to get through the winter, if you do run out 
of fuel assistance, yes.
    The Chairman. We have to ask ourselves, as a country and as 
a society, is this acceptable, and it isn't. Clearly, it's not. 
These are people that are looking after children, 
grandchildren, have worked, and continue to work hard, and they 
are faced with that kind of dilemma in this country.
    Let me just put up the chart. This is the temperatures 
drop, the home heating oil prices soar. This has gone up 47 
percent since last year. I mean, people will wonder why are we 
having this hearing and what's so different this year than even 
last year. We find out there's an increase and the cost has 
gone up 47 percent. I think it's at 175 percent over the last 5 
years, 180, 186, in the last decade. But this gives you--this 
is the real input.
    The next chart, if you would please.
    This gives you--it may be difficult in the back to see, but 
it shows on the one hand what Bob had mentioned and that is 
that the Congress has said that there needs to be the $5.1 
billion, and that, to be very honest about it, is really a bare 
minimum. It's really a bare minimum. I mean, I think even now, 
where we are at double, you find out that we are fortunate. 
We've got very good associations here--we're going to hear from 
some--where we take care of a much higher percent here in 
Massachusetts than many other States in the country. The 
national average is about one in seven. We do much, much 
better, and we'll hear about that this morning. It's great 
credit to those organizations that do it, but there are still 
people that are eligible that are missing out on this program.
    On the one hand, if you look at the item on the left, it's 
the request from the Administration, then what has been 
appropriated, and then the difference. You'll see over on the 
right column the increases that each year actually the Congress 
has added to the program, the largest one being in this last 
year, 2008, by a billion dollars. That's not insignificant, and 
it does have something to do, quite frankly--we're not here 
trying to make partisan points, but the fact is, it was 
democrats that voted, with the change of leadership in the 
House and Senate, to get that up to a billion dollars. It's the 
appropriated 2.57, and we're the ones now that are trying to 
increase that in the budget when we come back in January, and 
we're going to fight on the stimulus program. There'll be a 
stimulus program and we ought to have increased fuel 
assistance. I'm going to work on that. I know my colleagues are 
going to work on that as well. So, Bob, that's what we're going 
to try and do as a follow-along. People wonder when we have 
these hearings, and we'll be glad to keep in touch with you and 
the organizations here, and Margaret and Diane, they'll let you 
know how that's going. But this gives you some of the overall 
kind of facts here.
    We have another chart. It's just the point that has been 
made earlier, and that is the fact that it's a noticeable and 
factual situation that children lose a good deal of weight 
during the course of the winter because they're getting less 
nutrition because the bills the parents are paying are fuel-
assistance bills. I mean, that is something that is generally--
when you hear that, you really wonder about it. It's happening, 
it's real, and it's wrong. And that, we're going to battle as 
well.
    I'm going to ask Beth Ann Strollo, who is the President of 
the Massachusetts Association for the Community Action and 
Executive Director, Quincy Community Action Program, if she 
would be good enough to say a word.

    STATEMENT OF BETH ANN STROLLO, PRESIDENT, MASSACHUSETTS 
          ASSOCIATION FOR COMMUNITY ACTION, QUINCY, MA

    Ms. Strollo. Thank you, Senator.
    On behalf of my colleagues, many of whom are here today, 
from the Massachusetts Association for Community Action, and 
our friends in Washington at the National Community Action 
Foundation, I want to thank you for the hard work that you have 
done throughout your career in the Senate on behalf of the 
families and individuals that we serve, not just programs like 
Fuel Assistance, but Head Start, some wonderful work that you 
did last year in Head Start and for many years. We've very 
appreciative of that.
    We also just want to thank you for the opportunity to talk 
about this issue today and draw attention to this issue that 
we've been concerned about since the beginning of the heating 
season, really for a number of years now, and as my friend, Mr. 
Coard said, we will give you credit for that emergency release 
of funds. So I am happy to do that.
    You just illustrated the problem, and it's really very 
clear and simple. The fuel assistance benefits have never, in 
my recollection, been indexed for the increase in the cost. So 
we have now this huge gap, as you just showed us, between the 
cost to heat your home in a year and the benefit level. This 
cost is not just a cost for low-income people, it's a problem 
for everybody, to some extent. But when you are poor and you 
don't have any increase in your fixed income for a year or your 
wages are going up, if at all, they're going up a very small 
amount while many of your other living costs are increasing, 
your housing cost is increasing. Here in Massachusetts, we have 
some of the highest housing costs in the country. That puts an 
incredible burden on low-income households, many of whom 
receive no public assistance of any sort for housing. When they 
have a spike in their heating cost like this, there is no 
margin for people to cover that cost. That is real economic 
insecurity that has now turned into heat insecurity, it turns 
into food insecurity, it turns into medicine insecurity and 
housing insecurity. We see a direct correlation between this 
problem and the rise in family homelessness this past year in 
Massachusetts, which is a problem that we're very concerned 
about. When people are insecure, it is human nature that we 
sometimes do things that don't make a lot of sense and that 
maybe we wouldn't do otherwise. This is a problem that concerns 
us and has for a long time. But many of our clients have to 
resort to space heaters or opening their ovens, turning their 
ovens on and opening them as a source of heat. This is done in 
desperation.
    Yesterday, we had a briefing at the State house where we 
had a fire chief and a fire captain talk to us about this 
problem and what they see happening and one of the things that 
they are seeing happening this year is that we have low-income 
people taking their gasoline cans and filling them with heating 
oil and then putting that into their heating system. They have 
a real fear that it's going to be an explosion in the house. I 
haven't heard of this problem before, but they spoke about it 
yesterday when we met with them about their concerns as the 
safety officials in all of our communities.
    Those are the kinds of things that people are doing because 
they are fearful, they are anxious, and they are desperate.
    Other things that we see happening that maybe aren't as 
dangerous but are very troubling is that many of our clients 
are using their credit cards to pay their basic living costs, 
food, heat, medicine, and there is not enough income in their 
household to pay their credit card bills, so they are left with 
now a very serious credit card and debt problem. Their credit 
is ruined. Last year, as we closed out the fuel year and we 
looked at so many households who had huge utility arrearage 
bills, that their gas and electric stayed on all winter, but 
when spring and summer came around, it had to be turned off 
because the bills were so high. We have seen clients now put 
their utility bills in their child's name. There are teenagers 
now whose credit will be bad, because they really have no other 
alternative. They are doing it because they feel like they have 
no other choice but to do that to keep their utility on.
    The Chairman. Let me mention this issue on the credit 
cards. We've had a big increase in the last few years of 
bankruptcies, and these are directly attributed to this follow-
along. The way that the bankruptcy law works now, used to be 
people went into bankruptcy and you got a clean slate. You went 
back on--they had to have a workout in terms of paying whatever 
they could, but people were given a chance to get back on their 
feet. Do you think that's it now? Absolutely not. Those credit 
card companies have got their jaws into you for the rest of 
your life, just as Beth Ann has mentioned. You will find out in 
a bankruptcy the people that are going bankrupt, they work as 
hard as anyone else does. I mean, there's a normal sense, 
``Well, they've gone into bankruptcy because they're goofing 
off.'' If you look at what's happening now at the people who 
are going into bankruptcy, they are working as hard as anybody 
else who caused it, and a lot of it is the fact that they can't 
pay their health bill because of the expense of health and what 
Beth Ann has mentioned here in terms of these other 
necessities. Once their credit, then, is adversely impacted, it 
is a continuing kind of a spiral that is going to affect these 
families, and that is going to cause them this kind of anxiety 
in the future. This is all adding to this all-insecurity that 
you talked about, and it is really the new phenomenon that's 
taking place for families, and they are battling this thing, by 
and large, themselves or with their children or their 
grandchildren in trying to do this and they've got these forces 
that are out there, and this is really very unacceptable.
    Continue.
    Ms. Strollo. Thank you. Yes, we could have a whole other 
discussion on what the credit card problem is sometime.
    The Chairman. Yes, I know.
    Ms. Strollo. I think on maybe an encouraging note, here in 
Massachusetts, the community action and fuel agencies have 
worked closely with our partners, and there are a lot of them. 
A lot of people step up to the plate to help make this program 
stretch the dollars as far as we possibly can. Our friends over 
at the Department of Housing and Community Development 
administer this program. We work with them and the utility 
companies and the oil vendors. We are doing things that are not 
necessarily unique around the country, but they are certainly 
something for us to be proud of because we've been able to take 
the Federal money and leverage it with the utility companies 
and the oil vendors to get them to--particularly the oil 
vendors, who only get paid what's called a margin-over-rack 
price here in Massachusetts. Their profit is capped and it 
stretches the dollar.
    In Quincy, where I deliver this service, we saved about 
$100,000 a year by doing this, so that we can use that money to 
go back into benefits for clients. That is true all over the 
State. In all of the fuel assistance agencies, that number just 
gets blown up to get much bigger.
    The utility companies work to provide weatherization and 
heating system programs. We combine our resources, and, again, 
can help do more work for many families to make their homes 
more energy efficient.
    We are also blessed here, as you know, to work with many 
renowned physicians and medical institutions. You mentioned the 
impact on children. There's been some wonderful research done 
and our friends in the medical community have spoken publicly 
about that in recent years about the impact of cold on 
children. Yesterday, we heard again from another physician who 
spoke about what a child's body has to do to counter the cold 
that it feels and that that has a very negative impact on that 
child's health--it can have. It's another one of many reasons 
why this program needs to be fully funded.
    Locally, every community in Massachusetts can tell you 
stories about how local organizations, churches, foundations, 
and municipal governments come to help this program. In Quincy, 
where I am, the mayor and the city council appropriated $50,000 
this year for fuel assistance. This will help about 115 
households. Not very many. We have at least 2,000 households 
that we help with fuel assistance in Quincy. So it won't go 
very far, and you can see that's not the answer and that they 
can't be expected to solve this problem. So while we're very 
grateful for their help and they are very concerned about it, 
this does need to be a national Federal solution. So we urge 
you to--not you. We know you believe in----
    The Chairman. You can urge me.
    [Laughter.]
    Ms. Strollo [continuing]. To continue fighting, I guess, 
for $5 billion, because that is what we need.
    Right now, this is a crisis management program. You've 
heard Margaret and Diane talk about the state of high anxiety. 
We see it with so many of the families and individuals that we 
help. We really want to be working with them to help them 
become economically self-sufficient, but when you are anxious, 
and you are fearful that you're going to be cold that night and 
all day, then you can't really think about how to get out, get 
better education, get a new job, or work to survive a little 
better on your limited income.
    So we hope that someday we can get this back to being an 
assistance program, not a crisis program, so we can really work 
with folks to help them move forward.
    Thank you.
    [The prepared statement of Ms. Strollo follows:]
                 Prepared Statement of Beth Ann Strollo
    Chairman Kennedy, Ranking Member Enzi and members of the committee, 
I thank you for the opportunity to testify today. On behalf of all of 
the Massachusetts Association for Community Action Agencies (MASSCAP) 
and our advocacy colleagues at the National Community Action Foundation 
(NCAF) I want to express our gratitude to Chairman Kennedy for your 
tremendous leadership on LIHEAP and other initiatives that help low-
income residents in Massachusetts and throughout the Nation. In 
particular, I want to thank you for your recent and successful efforts 
to encourage the President to release the LIHEAP Emergency funds 
yesterday.
    I appreciate the opportunity to share the concerns of the 
Massachusetts fuel assistance providers. Last year Massachusetts fuel 
assistance agencies served over 140,000 low-income households. 
Approximately 40,000 of those households heat their homes with oil. In 
fiscal year 2007 Massachusetts had $90 million in fuel assistance 
funds. This year MASSCAP expects to serve at least that many households 
if not more. Prior to the release of the LIHEAP emergency funds 
Massachusetts had $106 million available to distribute to low-income 
residents this year. However, the record breaking cost of heating fuels 
without a commensurate increase in LIHEAP has created the most serious 
problem we have seen in years. Low-income households simply cannot 
bridge the gap between the rising costs of heat and their household 
income. As heating costs consistently rose over the past 7 years the 
purchasing power of the LIHEAP program has been greatly diminished.
    Based upon the Energy Information Administration's (EIA) data and 
the current cold temperatures we project the cost of heat for the 
Northeast to be between $1,600 and $3,000 depending on your heating 
source. Combining the current Federal LIHEAP funds with $15 million of 
State fuel assistance funds Massachusetts low-income residents will 
have a fuel assistance benefit of between $590 and $865 for the heating 
season. If you are at 100 percent of poverty and heat with oil that 
benefit will buy you a little over a tank of oil. Based on these 
benefit levels, essentially all of the Commonwealth's residents are now 
out of fuel assistance and we are right in the middle of a very cold 
winter. Once we receive the recently released emergency funds we will 
distribute them as quickly as we can, however, it is already too late. 
Historically, we have seen it take almost 2 months from the President's 
release before we can actually distribute those resources. When LIHEAP 
funds get released in this fashion it begs the question why wouldn't 
the full appropriation be distributed at the beginning of the heating 
season. Especially in the rising cost environment seen over the past 7 
years.
    Quincy Community Action Programs (QCAP) is the community action 
agency that administers the LIHEAP for Quincy, Weymouth, Braintree and 
Milton. We provide fuel assistance to approximately 3,000 households in 
those communities. This year we have seen a 20 percent increase in the 
number of low-income residents coming to us with less than \1/8\ of a 
tank of oil. This trend began by the end of November and continues. Our 
oil clients are telling us that they used to be able to pay for at 
least half of a tank to get them by until they received their fuel 
assistance benefit. Now they cannot afford the minimum cost necessary 
to get their first oil delivery. They arrive in our offices fearful and 
desperate. This trend is seen throughout the Commonwealth. The fear 
that faces a family when they cannot keep their children warm or an 
elderly woman who decides not to eat that day or take her necessary 
medicines so that she can pay for heat is real and should outrage us 
all.
    Low-income families and individuals cannot bridge this income/
expense gap. This economic insecurity now becomes heat insecurity--food 
insecurity--medicine insecurity--and housing insecurity. The number of 
homeless families is on the rise in Massachusetts. There are many 
reasons why but one of them is the high cost of heat and the 
significant utility arrearages from last winter. When we are insecure 
we do things that we may not otherwise do--things that don't always 
make sense. Many families and individuals facing this heat insecurity 
resort to using space heaters and turning their ovens on and open to 
heat their home. They run the risk of fire and loss of lives but they 
feel they have no alternative. Less dangerous but very troubling is the 
on going pattern we see of low-income households using credit cards to 
pay their daily living costs including food and heat. The concern lies 
in the fact that when you only have income of $20,000 a year you do not 
have enough money to pay those credit card bills. The result is that 
credit card bad debt strangles them from moving forward in their lives. 
A disturbing trend seen last year was that more and more of our utility 
clients are putting their utility bills in their child's name. When 
they cannot pay that bill the teenager is left with the bad credit. 
These stories are not provided with blame made, but merely to 
illustrate the means of survival for many low-income families.
    On a positive note here in Massachusetts we have many partners in 
the effort to provide fuel and energy assistance. We are proud of our 
partnerships with the utility companies, the oil vendors, municipal 
government and the many local foundations, churches and community 
agencies that help low-income residents get through the winter. In the 
city of Quincy for example, the Mayor and the city council appropriated 
$50,000 this year to help our LIHEAP clients. We expect to help about 
150 households with those funds. We serve almost 2,000 households in 
the city so you can see how difficult it is for a local government to 
handle the scope of the need.
    On a statewide level MASSCAP, the State Department of Housing & 
Community Development (DHCD) and the oil vendors have joined in 
partnership to stretch the LIHEAP dollars as far as possible by paying 
a margin over rack (MOR) price to the oil vendors. The vendors have 
agreed to capping their profit margin. At QCAP that effort has allowed 
us to provide almost another $100,000 in benefits to our clients. In 
addition, the utility companies have worked hand-in-hand with MASSCAP 
and DHCD to create a variety of energy efficiency initiatives funded by 
the utility companies and leveraged with Federal weatherization and 
heating system funds. In Massachusetts we are fortunate to have 
renowned physicians and medical centers conducting cutting edge and 
compelling research on the impact of cold on child development and 
health. We are grateful to all of our partners who work towards 
addressing this serious problem.
    In closing I want to emphasize that this program has moved from an 
assistance program to a crisis management program. Our clients come to 
us anxious and fearful that they will not get through the winter. 
Working with our clients when they are in a state of high anxiety 
prevents them and us from helping them work towards real economic self 
sufficiency.
    We urge the President and Congress to fully fund LIHEAP at $5 
billion and to assure those appropriations are authorized by the 
beginning of the heating season. All of us have an obligation to help 
our neediest residents stay warm and avoid the pain of living in the 
cold and in fear. Addressing their heating needs now will be the first 
step towards moving low-income families and individuals towards a 
brighter future.
    Thank you for the opportunity to provide this information to you 
today.

    The Chairman. Very good. Thank you. Thank you.
    Ten days of our involvement in Iraq would fund that whole 
program. You don't want to get me going on this one.
    We'll hear from Mark Wolfe, who is the Executive Director 
of the National Energy Assistance Association. We are grateful 
for your presence here.

 STATEMENT OF MARK WOLFE, EXECUTIVE DIRECTOR, NATIONAL ENERGY 
       ASSISTANCE DIRECTORS' ASSOCIATION, WASHINGTON, DC.

    Mr. Wolfe. Thank you, Senator.
    As you said, I am Executive Director of the National Energy 
Assistance Directors' Association. I represent the State 
directors of the Low-Income Home Energy Assistance Program. Of 
course, we'd like to thank you and your committee members for 
supporting LIHEAP.
    I would like to mention that I view States across the 
country on LIHEAP, and it's a checkerboard. This is not 
entitlement, and some States contribute to the program, others 
don't. Massachusetts, I believe, is among the top small group 
of States where you have comprehensive State support.
    Massachusetts, for example, is the only State so far, to my 
knowledge, that's put any direct appropriations in this year 
towards LIHEAP, and I think that the State should really be 
applauded for that.
    I'd like to talk a little bit about the program and our 
concerns about where it's going.
    As you were showing in the table before, it's been a 
struggle with the Administration for the last 8 years. Each 
year they come with very low recommendations for LIHEAP and 
then it's a struggle throughout the year, along with the very 
tight budgets we've been working with.
    For fiscal year 2008, the current year, for example, the 
appropriation levels are the same level of block grant funding 
of $1.98 billion for the program, but increased the contingency 
fund, the emergency part of the program, by $408.6 million to 
$590.3 million. I believe that, frankly, is one of the bright 
spots in the Omnibus Appropriations Bill.
    Looking across programs, all the important social service 
programs that are funded, LIHEAP received one of the larger 
increases, and I think that's part of what's making a 
difference right now.
    The President's budget for fiscal year 2008 would have 
reduced LIHEAP, the basic grant, to $1.5 billion. That would 
have been drastic. We would have had to eliminate about 1.1 
million households from the program.
    For Massachusetts, just to give you an example of what 
happened, under the basic grant in the President's budget, the 
State would have received $61 million. Under the funding that 
was provided, the core funding, the State received $81 million. 
If the program was fully funded at the authorized level, 
Massachusetts would receive $157 million. So that's to just 
give a sense of the numbers of where we are and what would have 
happened if the President's budget had gone through.
    The number of households receiving assistance has been 
rapidly rising. This reflects a significant rise in home energy 
prices and the number of low-income households.
    Since 2002, the number of households receiving LIHEAP 
heating assistance has increased from 4.2 million to an 
estimated 5.8 million for the current year. Even at this level, 
the program serves only 15.6 percent of eligible households. 
The majority of households have at least one member that's 
elderly, disabled, or a child under the age of five. Families 
receiving LIHEAP assistance carry a much higher energy burden 
than most Americans, spending, on average, about 15 percent of 
their income on home energy bills, as compared to 3.4 percent 
for eligible households--households with at least one member 
who is disabled or elderly.
    LIHEAP is not an entitlement program like Medicaid, 
unfortunately, providing a minimum benefit level of health care 
coverage for eligible households. When the number of households 
receiving Medicaid increases, the appropriation increases. In 
the case of LIHEAP, however, when the number of households 
increases, the average grant goes down, but if energy prices 
increase, the purchasing power goes down.
    We've been tracking the purchasing power issue for a couple 
of years and we are very alarmed by it. Between 2003 and 2007, 
the number of households receiving LIHEAP increased by 26 
percent, from 4.6 million to 5.8 million. In the same period, 
the Federal LIHEAP appropriation increased by about 10 percent. 
The resulting average annual grant decreasing from $349 to 
$345. The increase provided by the Omnibus Appropriations Act, 
assuming the Administration releases all the emergency funds, 
will increase the average benefit to $359 per household, about 
the same level provided in fiscal year 2003 and fiscal year 
2005. This would not be a problem if energy prices were 
decreasing or remaining stable.
    Unfortunately, as everyone knows in this room, energy 
prices are soaring. Home heating bills are projected by the 
U.S. Energy Information Administration to average about $1,000 
per year for the typical family, an increase of almost 80 
percent more than the average cost of home heating during the 
winter of 2001-2002, and 47 percent higher than 2002-2003.
    Between 2003 and 2008, the average LIHEAP grant percent of 
total home heating costs declined from 36 percent of the 
average cost to 17.8 percent for heating oil, from 58.2 percent 
to 40.6 percent for natural gas, 37 percent to 21 percent for 
propane, and 50 percent to 43 percent for electricity. The 
increase provided for fiscal year 2008 is to offset this, but 
certainly only on the margin.
    Increase in the price of heating oil, however, is a special 
concern for the northeast States and to the LIHEAP directors 
because 75 percent of heating oil is used in this region. Local 
market conditions are driving the cost of home heating oil to 
record levels, products, and the price of other fuels. The U.S. 
Energy Information Administration has projected the price of 
home heating oil will increase from last year by $551 this year 
to $2,019. These prices, however, assume the typical family 
only uses 610 gallons of fuel. In fact, in some of the colder 
places in the northeast, like Massachusetts, for example, we're 
hearing about families who need 1,000 gallons that would cost 
about $3,200. The fact that heating oil now cost about $900, 
more than half the total monthly Social Security payment for 
the average-aged couple, almost the entire monthly income for 
an aged widow woman who lives alone. The 2008 average increase 
in Social Security is only about $24 a month, less the amount 
needed to pay the increase in home heating this year.
    I think that one thing that's not understood outside of New 
England, you know, if you talk to people in Ohio and the south, 
they really can't comprehend spending $3,000 for home heating. 
I think that when you look at the average, which that's such a 
problem for Social Security, the average works in some States, 
because if you're using natural gas, you might not see that 
much of an increase. If you're using heating oil in the 
northeast or in New England, this average is pretty useless, so 
that an elderly family might be seeing an increase of five to 
$600; this year their Social Security is only going up by $240. 
That's the problem. There's a real disconnect. I think that 
heating oil, because it's really in this region, we're 
concerned about the public health implications of families not 
having adequate funds to pay for heating oil, and I just don't 
think this is understood outside of this part of the country.
    A few more points I would like to raise. One of our 
concerns about the rising need for energy assistance is the 
increase--is in arrearages and the shutoffs that we're starting 
to see. The National Regulatory Research Institution came out 
with a recent report of [inaudible] percent between 2001 and 
2006. Last spring, we did a survey where States reported about 
1.2 million households that were cut off from natural gas and 
electric service due to nonpayment of energy bills.
    What we're finding and bringing back from utilities is that 
the basic structure of energy assistance worked up to recently. 
Five or six years ago, you could heat a home for $600, and many 
families could afford that. There are also many elderly 
families that didn't want to ask for help and they could make 
do with prices at that level. But we are looking at $2,000, 
$2500 to heat your home. That doesn't include the rest of the 
electric bill. They just don't have the money. So what 
utilities are starting to see is rapidly increasing arrearages 
and that the tools they have aren't working that well, and 
especially for the elderly with the threat of shutoff. I mean, 
these families can't go to work at Wal-Mart to make extra 
money. We need to begin to acknowledge that threats of shutoff 
just doesn't work in many cases and you have to start having 
broader-based protections.
    The Chairman. Mark, talk about that for a minute about what 
the dangers of shutoff are and how it is different for 
utilities, if you could explain that to everyone here.
    Mr. Wolfe. Again, it's a checkerboard situation. Some 
utilities are extremely aggressive. Part of what's going on is 
that, not to be Pollyannaish about this, but 20 years ago, the 
local head of the utility was often a local community leader 
and there were a lot of concerns. They would work closely with 
the State to work out the end plans to work out long-term 
agreements and often they just wouldn't shut people off. There 
were very low instances of shutoff. What we're finding now is 
that utilities are becoming more bottom-line oriented and 
becoming much more aggressive in their shutoff procedures.
    Massachusetts, again, is a bright spot in the national 
picture. In Massachusetts, if an elderly person has a doctor's 
note, they are permanently protected during the period. Many 
States require notes to be recertified every 30 days. It's just 
not practical.
    The other thing that's going on is that the Federal 
Government is pushing very hard to help elderly people stay in 
their homes through these new home health care programs. Well, 
that's wonderful, except what happens with the energy bill.
    So we're starting to have this disconnect between more and 
more elderly people, more of the people can stay at home, but 
not have adequate funding for energy assistance. With the bill 
getting larger, it's really starting to hit--you know, about 
that horrible phrase ``a perfect storm.'' Utilities are 
becoming more aggressive about collections, much higher prices, 
but energy assistance is not keeping up with it. Then you have 
about 10 States in the country that have clearly stepped up to 
the plate, put a lot of their own resources into the program, 
and even those States are struggling, like in Massachusetts. 
You know, frankly, if you went to Virginia, for example, they 
don't put anything into this. It's a totally different 
discussion. And it's sad.
    In the State of Massachusetts, you're talking about a State 
putting significant resources into this, very strong shutoff 
protections and still it is a struggle. So I think that is 
where your own country, unfortunately, becomes two countries 
for energy assistance, one where the States are trying very 
hard to provide minimum protections and others where they 
basically supply heat to basically fill the full bill.
    [The prepared statement of Mr. Wolfe follows:]
                    Prepared Statement of Mark Wolfe
    Good morning, I am pleased to testify on behalf of the National 
Energy Assistance Directors' Association (NEADA) on the importance of 
the Low Income Home Energy Assistance Program (LIHEAP) in meeting the 
heating and cooling needs of some of the Nation's poorest families. 
NEADA represents the State LIHEAP directors. The members of NEADA would 
like to first take this opportunity to thank the members of the 
committee for its continued program support in working to increase 
funding for LIHEAP.
    By way of background, there are four components to the LIHEAP 
program:

    <bullet> Block grant providing formula grants to States to help 
low-income families pay their heating and cooling bills.
    <bullet> Emergency contingency funds that can be released by the 
Administration for a number of reasons including natural disasters, 
rapid increases in home energy prices, high unemployment rates, and 
other economic conditions.
    <bullet> Residential Energy Assistance Challenge (REACH) grant 
providing competitive discretionary grants to States to develop new 
strategies to assist households in reducing their home energy burden.
    <bullet> Leveraging grants providing States with additional 
incentives to raise non-
Federal funds for energy assistance.

    In addition, the law authorizes the appropriation of advance funds 
1 year before the start of the program year in order to allow States to 
plan for the design of their programs. This is especially important in 
years when the appropriation for the Federal fiscal year is delayed and 
States in cold weather have to start their programs without knowing the 
final appropriation level. As a result, States sometimes have to revise 
their program benefit and eligibility levels several times during the 
course of the program year, until a final appropriation level is 
reached. This can cause considerable delay and confusion in the 
delivery of program services.
                authorization and appropriations levels
    The LIHEAP appropriation level for fiscal year 2007 was $2.1 
billion of which $1.98 billion was for the block grant and $181 million 
was allocated for emergency contingency funding. Of the amount provided 
for the block grant , $27.3 million was set-aside for REACH and 
leveraging. No advance funding was appropriated.
    For fiscal year 2008, the appropriation level provides the same 
level for the block grant and increases the emergency contingency 
funding level by $408.6 million from $181.5 million to $590.3 million. 
As in fiscal year 2007, no advance funding was appropriated.
    The President's Budget for fiscal year 2008 would have reduced the 
LIHEAP basic grant appropriation to $1.5 billion and provided $282 
million in emergency contingency funds. If the President's Budget had 
been approved, the number of households served would have been reduced 
from about 5.8 million to 4.7 million.
    The authorization level for LIHEAP was increased from $2 billion to 
$5.1 billion by the Energy Policy Act in fiscal year 2005. The act also 
continued the authorization level for emergency funds at $600 million. 
The program's authorization expired at the end of fiscal year 2007. The 
following table compares the current block grant funding level by State 
with the authorized funding level of $5.1 billion.
                          eligibility criteria
    LIHEAP allows States to set eligibility at the greater of 150 
percent of the Federal poverty level, or 60 percent of State median 
income. In fiscal year 2007, 150 percent of the Federal poverty level 
for a family of four was $30,975. In practice, most States target funds 
to lower income families.
    More than 70 percent of families receiving LIHEAP have incomes of 
less than 100 percent of the Federal poverty level ($20,650 for a 
family of four) and 44 percent have incomes of less than 75 percent of 
the poverty level ($15,488 for a family of four).
    State agencies generally contract with non-profit agencies to 
conduct outreach and sign-up activities. The application process is 
relatively straightforward. Most States require only proof of income 
and a copy of an applicant's most recent utility bills. Generally, 
asset tests are not required and some States now allow applications by 
mail.
                           households served
    The number of households receiving assistance has been rising 
rapidly. This reflects a significant rise in home energy prices and in 
the numbers of low-income households. Since 2002, the number of 
households receiving LIHEAP heating assistance has increased from 4.2 
million to an estimated 5.8 million in fiscal year 2007. Even at this 
level, the program serves only 15.6 percent of eligible households. The 
majority of households have at least one member who is elderly, 
disabled or a child under the age of 5.
    Families receiving LIHEAP assistance carry a higher energy burden 
than most Americans--spending on average about 15 percent of their 
income on home energy bills, as compared to 3.4 percent for all other 
households. Many of these households also have at least one member who 
is disabled (43 percent) or elderly (41 percent).
                      uses of formula grant funds
    LIHEAP is a block grant providing grantees with considerable 
flexibility delivering program services. In designing their programs, 
States are allowed to set-aside up to 10 percent of their allotment to 
cover administrative costs, up to 15 percent of program funds (25 
percent with a waiver from the U.S. Department of Health and Human 
Services) to support weatherization activities and up to 5 percent to 
support activities that enable households to reduce their home energy 
needs, including needs assessments, counseling, and assistance with 
energy vendors to reduce the price of energy.
    On average, States set-aside 10 percent of their block grant to 
support weatherization activities. These funds complement program 
support provided by the Weatherization Assistance Program (WAP). 
Weatherization assistance can include insulation, appliance and furnace 
repair and replacement and related health and safety measures. A 
weatherized home can use up to 30 percent less energy than a comparable 
home.
    States are also required to set-aside ``a reasonable amount'' of 
funds to be used until March 15 of the program year for energy crisis 
intervention. These interventions are defined to include households 
that need additional assistance to address life-threatening situations 
including shut-offs due to non-payment.

                             LIHEAP: FY 08 Basic Grant Appropriations Status ($'000)
----------------------------------------------------------------------------------------------------------------
                                                                       FY 08                       Energy Policy
              State                   FY 2006         FY 2007        President     FY 08 Enacted        Act
----------------------------------------------------------------------------------------------------------------
Alabama.........................         $31,310         $16,770         $12,645         $16,770         $87,205
Alaska..........................          16,475          10,704           8,071          10,704          26,002
Arizona.........................          15,142           8,110           6,115           8,110          42,233
Arkansas........................          22,765          12,796           9,648          12,796          47,082
California......................         153,182          89,963          67,835          89,963         316,814
Colorado........................          43,165          31,367          23,652          31,367          58,158
Connecticut.....................          62,727          40,920          30,855          40,920          98,878
Delaware........................          10,140           5,431           4,095           5,431          21,871
District of Columbia............           7,851           6,355           4,792           6,355          16,239
Florida.........................          49,541          26,534          20,007          26,534         138,181
Georgia.........................          39,170          20,979          15,818          20,979         109,253
Hawaii..........................           2,555           2,113           1,593           2,113           5,284
Idaho...........................          14,370          12,235           9,226          12,235          29,721
Illinois........................         187,251         113,259          85,401         113,259         301,871
Indiana.........................          72,682          51,280          38,666          51,280         111,654
Iowa............................          50,013          36,343          27,404          36,343          60,776
Kansas..........................          26,798          16,690          12,585          16,690          55,424
Kentucky........................          44,346          26,686          20,122          26,686          91,718
Louisiana.......................          32,009          17,144          12,927          17,144          85,072
Maine...........................          36,480          26,509          19,989          26,509          47,034
Maryland........................          58,499          31,332          23,625          31,332         136,730
Massachusetts...................         112,639          81,853          61,720          81,853         157,890
Michigan........................         147,974         107,529          81,080         107,529         199,566
Minnesota.......................         106,606          77,469          58,414          77,469          90,280
Mississippi.....................          26,843          14,377          10,841          14,377          74,871
Missouri........................          76,035          45,240          34,112          45,240         123,142
Montana.........................          22,088          14,351          10,821          14,351          34,861
Nebraska........................          27,661          17,973          13,552          17,973          43,658
Nevada..........................           7,112           3,809           2,872           3,809          19,836
New Hampshire...................          23,846          15,493          11,683          15,493          37,634
New Jersey......................         105,244          75,986          57,296          75,986         160,368
New Mexico......................          11,925          10,153           7,656          10,153          24,663
New York........................         341,432         248,112         187,084         248,112         471,752
North Carolina..................          69,037          36,976          27,881          36,976         164,462
North Dakota....................          23,995          15,590          11,755          15,590          37,869
Ohio............................         158,789         100,194          75,549         100,194         252,854
Oklahoma........................          28,780          15,415          11,623          15,415          64,604
Oregon..........................          24,591          24,311          18,331          24,311          42,504
Pennsylvania....................         183,399         133,273         100,492         133,273         272,515
Rhode Island....................          20,737          13,473          10,159          13,473          32,728
South Carolina..................          24,866          13,318          10,042          13,318          69,357
South Dakota....................          19,488          12,662           9,548          12,662          30,756
Tennessee.......................          46,362          27,033          20,384          27,033          95,888
Texas...........................          82,421          44,144          33,286          44,144         229,887
Utah............................          22,434          14,576          10,991          14,576          35,407
Vermont.........................          17,872          11,613           8,757          11,613          28,208
Virginia........................          71,258          38,166          28,778          38,166         149,727
Washington......................          40,449          39,988          30,152          39,988          64,001
West Virginia...................          23,818          17,660          13,317          17,660          49,261
Wisconsin.......................          95,961          69,733          52,581          69,733         105,404
Wyoming.........................           8,983           5,836           4,401           5,836          14,176
Territories/HHS Training........           3,658           2,951           2,294           2,951           7,171
Leveraging......................          27,225          27,225          27,500          27,225          27,500
----------------------------------------------------------------------------------------------------------------
    TOTAL.......................      $2,980,000      $1,980,000      $1,500,023      $1,980,000      $5,100,000
----------------------------------------------------------------------------------------------------------------
\1\ FY 06 included $1 billion in supplemental funding.
\2\ FY 07 included $181 million in emergency contingency funding.
\3\ Adm. FY 08 Budget included $282 million in contingency funds.
\4\ FY 08 Appropriations, as passed, included $590.3 million in contingency.

                         program appropriations
    The distribution of formula grant funds is based on a complex 
formula that provides that no State beginning in fiscal year 1986 will 
receive less than the amount of funds it would have received in fiscal 
year 1984 if appropriations for this part for fiscal year 1984 had been 
$1.975 billion. Fiscal year 1984 funds were distributed to States on 
the same share of funds they received in fiscal year 1981 under the 
predecessor program to LIHEAP, the Low-Income Energy Assistance Program 
(LIEAP). The fiscal year 1981 allotment percentages that were derived 
from an extremely complex formula included such factors as heating 
degree days squared, home heating expenditures, total residential 
energy expenditures, and the population with income equal to or less 
than 125 percent of the poverty income guidelines.
    The law also provides that when LIHEAP block grant appropriation 
exceeds $1.975 billion (only in fiscal year 1985, fiscal year 1986 and 
fiscal year 2006), not including $27.5 million in other program set-
asides, funds are allocated under a complex formula that includes 
cooling as well as heating degree days and a small State minimum 
allocation.
    LIHEAP is not an entitlement program like Medicaid providing a 
minimum benefit level of health care coverage for eligible households. 
When the number of households receiving Medicaid increases, for 
example, the appropriation is automatically increased to guarantee the 
same benefit level for all recipient households. In the case of LIHEAP, 
however, when energy prices increase, the purchasing power is reduced; 
when the number of households receiving assistance is increased, the 
average benefit is reduced. This is the situation the program is 
currently facing.
                       declining purchasing power
    Between fiscal year 2003 and fiscal year 2007, the number of 
households receiving LIHEAP increased by 26 percent from 4.6 million to 
about 5.8 million or about 15.6 percent of the eligible population. 
During this same period, the Federal LIHEAP appropriation increased by 
about 10 percent with the resulting average annual grant decreasing 
from $349 to $345. The increase provided by the Omnibus Appropriations 
Act will allow the States to increase the average annual grant to $359 
per household, about the same level as provided in fiscal year 2003 and 
fiscal year 2005. This would not be a problem if energy prices were 
decreasing proportionally or remaining stable.

                         Est. Change in Households Served & Average Grant (FY 03-FY 08)
----------------------------------------------------------------------------------------------------------------
                                                         Appropriation (in    # ofHouseholds
                      Fiscal Year                            thousands)       (in thousands)     Average Grant
----------------------------------------------------------------------------------------------------------------
2003...................................................         $1,988,300              4,610               $349
2004...................................................         $1,888,790              4,828               $317
2005...................................................         $2,186,000              5,083               $348
2006...................................................         $3,162,000              5,717               $448
2007...................................................         $2,186,000              5,800               $305
2008...................................................         $2,570,000              5,800               $359
----------------------------------------------------------------------------------------------------------------

    Unfortunately, energy prices are soaring. Home heating prices are 
projected by the U.S. Energy Information Administration (EIA) to reach 
almost $1,000 this year for the typical family, an increase of almost 
80 percent more than the average cost of home heating during the winter 
of 2001-2002 and 47 percent higher than in 2002-2003. As a result, 
there has been a significant decrease in the program's purchasing 
power.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Between fiscal year 2003 and fiscal year 2008, the average LIHEAP 
grant as a percentage of total home heating costs declined from 36.7 
percent to 17.8 percent for heating oil, 58.2 percent to 40.6 percent 
for natural gas, 37.7 percent to 21.2 percent for propane and 50.1 
percent to 43.1 percent for electricity. The increase provided for 
fiscal year 2008 has helped to offset the decline, however, the share 
of expenditures covered continues to be inadequate to meet the need.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The increase in the price of heating oil is of special concern to 
the Northeast States because 75 percent of heating oil is used in this 
region. Global market conditions are driving the cost of home heating 
oil to record levels, far exceeding the price of other fuels.
    The U.S. Energy Information Administration has projected that the 
price of home heating oil will increase from the 2006-2007 heating 
season by $551 (37.6 percent) to $2,019. These prices assume that the 
typical family will only need about 610 gallons of fuel. In fact in 
some of the colder parts of the Northeast the total is expected to be 
closer to 1,000 gallons for a cost of about $3,200.
    A tank of heating oil now costs about $900, more than half of total 
monthly Social Security payment for the average aged couple and almost 
the entire monthly income for an aged widower living alone. The 2008 
average increase in Social Security is only about $24 a month, less 
than the amount needed to pay for the increase in home heating oil this 
year.
    Low-income families using heating oil this winter are facing a 
difficult situation. This is especially true for those on fixed incomes 
including the elderly and disabled. I do not expect the situation to 
change anytime soon.
    This situation for natural gas is quite different. Prices are set 
domestically and have been increasing at a much slower rate. For 
example, the average cost of home heating with natural gas is projected 
at $884 for the current winter heating season, about $71 more than last 
year and $1,135 less than the cost of home heating oil.
                      outlook for fiscal year 2008
    The increase in contingency funding provided by the Omnibus 
Appropriations Act will help States to adjust benefit levels to pay for 
higher heating and cooling costs. Yesterday's release of funds will 
provide needed help to offset the impact of higher energy costs this 
winter.
    The States are concerned that the increase will not be sufficient 
to meet the growing need for energy assistance and offset the impact of 
higher energy prices. We are currently conducting a survey of the 
States and the reports are grim. The States are serving about 15.6 
percent of eligible households. State directors believe that the 
percent served needs to be increased to at least 25 percent of the 
eligible households to help offset the growing affordability gap as 
prices increase faster than the rate of income.
                        arrearages and shut-offs
    One indicator of the rising need for energy assistance is the 
increase in arrearages and shut-offs. The National Regulatory Research 
Institute, for example, in a recent report found that past-due gas 
utility accounts rose from 16.5 percent in 2001 to 21 percent in 2006. 
Last spring, in a survey conducted by NEADA, States reported that 1.2 
million households were cut off from natural gas and electric service 
due to nonpayment of their energy bills. Several States reported 
significant increases in arrearage and shut-off rates from previous 
years. In addition, we are also learning that traditional arrearage 
management programs that provide matching payment programs to help 
families reduce their outstanding debt are becoming less and less 
effective. States are reporting that families increasingly do not have 
the resources to meet matching payment requirements and as a result are 
at greater risk of shut-off.
    The following provides a brief summary from several of the initial 
group of States that have responded to the survey:

    <bullet> Arizona: the State continues to struggle in meeting the 
increasing demand for LIHEAP services due to various factors working 
together as the ``perfect storm'' to deplete all available resources. 
Providers report that requests for energy assistance services continue 
to increase and include inquiries from non-traditional populations who 
are in financial distress due to the sub-prime lending problem. One of 
the largest utility companies in the State has reported a 42 percent 
increase in calls to its customer service department from September 
2006 to September 2007, most calls from customers who cannot pay their 
home energy bills. One LIHEAP provider (the Community Action Human 
Resources Agency in Pinal County) reported a total of 1,000 families 
turned away due to lack of funds between August and September of 2007. 
In fiscal year 2007, Arizona served approximately 33,000 households 
with LIHEAP benefits. However due to the sharp decrease in funding, 
together with an increase in energy costs, Arizona estimates that at 
least 10,000 fewer families will be served in 2008.
    <bullet> Arkansas: the State expects to reduce the number of 
households served by up to 20 percent as compared to the number served 
in fiscal year 2007.
    <bullet> California: the State expects to serve fewer households 
and will have to reduce the amount of funding available for weather-
related (and fire-related) emergencies and disasters than they have 
used in the past. No change has been implemented in the eligibility 
criteria or benefit structure. The maximum benefit is still $200 and 
with higher prices that won't cover much. The maximum for emergency 
assistance will remain at $1,000 and that may not be enough to prevent 
cutoffs of utility service as energy costs increase. They are only able 
to serve 8 percent of the eligible population and there has been an 
increase in the number of applications at the local level--with some 
local agencies exhausting their allocations sooner. The available 
funding will be prioritized to those with the lowest income and highest 
energy burden.
    <bullet> Connecticut: the State set their income eligibility level 
at 60 percent of State median income as a result of State statute. 
Benefits were also set in statute. There is concern that the high cost 
of fuel will result in households exhausting their benefits early in 
the heating season and there will not be sufficient funding available 
to provide adequate benefit levels throughout the winter heating 
season.
    <bullet> Delaware: the State will serve up to 20 percent fewer 
households than in fiscal year 2007 in order to maintain adequate 
benefit levels. Delaware's average benefit is $355 which currently buys 
at least 100 gallons of heating oil, propane or kerosene. While the 
$355 benefit is not a problem for those homes heating primarily with 
gas or electricity, approximately 50 percent of Delaware's LIHEAP 
households heat with delivered fuel. In many situations vendors will 
not deliver less than 100 gallons of fuel to a home without adding a 
surcharge. For this reason, the State did not want to lower their 
benefit levels from last year.
    In some rural areas the minimum delivery is 150 gallons. If the 
State were to lower the average benefit, LIHEAP or the customer would 
be paying a premium just to have the fuel delivered. The State believes 
that this approach would be unacceptable and therefore they have opted 
not to reduce the benefit level this year. In many instances the LIHEAP 
benefit is only about 20 percent of the households total winter heating 
bill; if the winter is especially cold, the LIHEAP percentage will be 
even lower.

    <bullet> Kentucky: the State is expecting to maintain benefit and 
eligibility levels; in light of the reduction in Federal funding, they 
are expecting to have to reduce the number of households served. With 
last year's funding, Kentucky was able to serve 100,566 households with 
basic grant funds and 123,728 with crisis assistance. Kentucky's 
program generally operates until the end of March and into April as 
funding allows, but could run out of funds as early as next February. 
Kentucky has made no change to its eligibility criteria or benefit 
structure, but will reduce the number served as necessary based on 
final funding.
    <bullet> Maine: for the more than 84 percent of the LIHEAP 
households that heat with oil or kerosene, the cost of oil as of 11/6/
07 averaged $3.09 per gallon and kerosene at $3.40 per gallon. An 
average benefit of $579 to service 48,000 households will only purchase 
193 gallons of oil and kerosene at $3.40 will only purchase 170 
gallons. This will provide 2 to 3 weeks of home heating in most low-
income housing. The average household's income is $13,000 annually, 
many senior citizens with only $7,000 a year to survive on. Right now 
Maine would need to receive another $17.5 million just to provide a 
$370 supplemental benefit to LIHEAP households and this will still not 
provide the same relief as in past program years.
    <bullet> Maryland: the State increased their grant amounts this 
year but reduced eligibility from 200 percent of the Federal poverty 
level to 175 percent. Governor O'Malley has stated that Maryland will 
serve all who apply and are qualified and has stated that ``we will 
find the money'' to serve them.
    <bullet> Michigan: the State reduced the maximum amount it will pay 
to prevent shut-off or to restore payments from $550 per household to 
$350 per household for natural gas and electricity and from $850 to 
$650 for households using deliverable fuels in June 2007 due to lack of 
sufficient funds to meet the demand during the last fiscal year that 
ended 9/30/07. Michigan will continue that reduction into fiscal year 
2008 and is closely monitoring weekly expenditures with these reduced 
maximums in place to determine if additional reductions will be needed 
to stay within available funds. If the high rate of expenditures the 
State experienced in October continues, an additional reduction in 
these maximums will be needed without additional funds.
    <bullet> Minnesota: the State is maintaining current eligibility 
and benefit levels but could run out of funds as early as February.
    <bullet> Nebraska: deliverable fuels make up around 12 percent of 
the heating fuels used; the rest is provided by natural gas and 
electricity. Nebraska is not planning on reducing benefits but is 
looking at how much they can pay in crisis funds for a household this 
early in the heating year. Nebraska runs a year around crisis program 
along with a cooling program and will continue to make heating/cooling 
payments and crisis payments as long as they have the funding to do so.
    <bullet> New Mexico: several of the large companies in New Mexico 
have had rate increases approved for natural gas and electricity. Two 
rate cases are pending. The propane prices are the biggest concern 
since some have gone up more than 50 percent over summer prices. One 
company is currently reporting $3.19 a gallon for propane. Most 
companies are between $2.20 and $2.65 per gallon for propane.
    <bullet> New York: the State has increased the program's maximum 
regular grant by $100 to $540 in order to maintain the program's 
purchasing power. The program has only been open for 2 weeks and they 
are finding many situations where a regular and an emergency grant must 
be issued simultaneously for deliverable fuel customers to be able to 
meet minimum delivery requirements. This means that a household's 
entire LIHEAP benefit amount will be exhausted in November. If 
additional funding is not provided, the State will have to reduce the 
number of households receiving benefits.
    <bullet> Ohio: will have to cut back its regular benefit by between 
15 and 20 percent. The cost of all utilities are up across the board, 
mostly for propane and heating oil. In addition, Ohio has already 
received about 10 percent more applications this year than last year at 
this time.
    <bullet> Pennsylvania: the State is planning on maintaining current 
eligibility and benefit requirements but anticipated serving fewer 
households if Federal funding is not increased.
    <bullet> Rhode Island: the State expects to serve 15 percent fewer 
families this year compared to last year. Rhode Island has reduced its 
average primary grant benefit from $475 to $350. Even with reducing the 
average benefit, Rhode Island will assist approximately 15 percent 
fewer families as compared to last winter.
    <bullet> Texas: the State operates a year-round energy assistance 
program. Their eligibility criteria is set at 125 percent of the 
Federal poverty level. They are expecting to serve only 6 percent of 
the eligible population, down from 7 percent in fiscal year 2008.
    <bullet> Virginia: the State will serve all eligible households who 
apply during the application period. In order to do so, they are 
expecting to reduce the percent of heating costs covered by the program 
grant. The State is concerned that as a result of the expected 
reduction in purchasing power, it could prove to be very difficult for 
households that use deliverable fuel, since most vendors have minimum 
delivery requirements that will likely well exceed their benefit 
amounts.
                          supplemental funding
    Many States, in partnership with their local utilities, also 
provide supplemental funding through direct appropriations or by 
creating system benefit funds, which are small charges against the 
utility rate base that are used to provide discounts and arrearage 
protection programs. In addition, utilities have also taken steps to 
provide low-income families with additional time to pay their bills by 
providing flexible payment arrangements and in many cases actively 
supporting State efforts to develop system benefit funds.
    The combined total of State, utility and charitable giving was 
about $3.2 billion in 2006 with charitable giving being the smallest 
amount at about $140 million annually. It is important to note, 
however, that these State, utility and charitable funds are no 
substitute for adequate Federal funding. The level of support varies 
considerably with only 12 States accounting for 83 percent of the total 
non-Federal spending on energy assistance.
  what happens when families do have sufficient funds to pay for home 
                 heating or cooling? research findings
    Funding provided by the Appropriations Committee has allowed us to 
conduct surveys of families receiving LIHEAP assistance. Among the 
findings of our last survey:

    <bullet> Of the families surveyed, 44 percent said that they 
skipped paying or paid less than their entire home energy bill in the 
past year. Households with children (67 percent) and those with income 
below 50 percent of the Federal poverty level (62 percent) were more 
likely to do so.
    <bullet> In addition, 30 percent reported that they received a 
notice or threat to disconnect their electricity or home heating fuel. 
Again, households with children (51 percent) and those with income 
below 50 percent of the Federal poverty level (51 percent) were more 
likely to experience this problem.
    <bullet> Also 8 percent reported that their electricity or gas 
service was shut off in the past year due to nonpayment of utility 
bills. In addition, 16 percent of households with children and 22 
percent with income below 50 percent of the poverty level reported a 
service termination in the past year.
    <bullet> As well as 18 percent said that they were unable to use 
their main source of heat in the past year for reasons ranging from 
their heating system was broken and they were unable to pay for its 
repair, they ran out of their bulk fuel and could not afford to pay for 
more, or because their utility used for heat was disconnected. 
Households with children (27 percent) and households with income below 
50 percent of the poverty level (36 percent) were more likely to face 
this problem.
    <bullet> And 13 percent reported that broken air conditioners or 
termination of electric service prevented them from using their air 
conditioner. Households with a disabled member (19 percent), households 
with children (19 percent) were somewhat more likely to report this 
problem.
           public health consequences of unaffordable energy
    Unaffordable home energy presents a threat to public health and 
safety directly in the following ways:

    <bullet> Households respond to high bills, arrearages, or worries 
about incurring high costs, by choosing not to heat their homes 
adequately in winter or cool them during the summer, or by using unsafe 
means to heat or illuminate their homes, for example, heating with a 
kitchen oven or barbecue grill or lighting by means of candles. Utility 
service shutoffs directly threaten health in this manner. In addition, 
when homes in poor structural shape need weatherization, it may be 
prohibitively costly or impossible to keep interiors within a safe 
temperature range.
    <bullet> Lack of access to energy assistance also threatens health 
indirectly. The squeeze put on home budgets by high utility bills and 
the threat of shutoff leads households to make difficult trade-offs, 
purchasing heat or electricity for air-conditioning instead of food or 
medications. In northern States, for example, poor families with 
children spend less on food, and children eat fewer calories, compared 
with higher-income families (Bhattacharya et al., 1993). Poor seniors 
in the north are also more likely to go hungry in late winter and early 
spring, while seniors in the south, where energy bills for air-
conditioning can be high, are more likely to go hungry in late summer 
(Nord and Kantor, 2006).
    <bullet> Seasonal differences in heating and cooling costs explain 
much of the difference in hunger prevalence for low-income households 
without school-aged children. Young children from families that are 
eligible for but not enrolled in energy assistance are more likely, 
than children from families receiving LIHEAP, to be small for their age 
(underweight) and more likely to need hospital admission on the day of 
a health care visit (Frank et al., 2006).
    <bullet> Researchers from the Children's Sentinel Nutrition 
Assessment Program (C-SNAP) at the Boston Medical Center, conclude 
that:

          ``The health consequences of trade-offs in spending can be 
        serious especially for the youngest children. The first 3 years 
        of life are a uniquely sensitive period of extraordinary brain 
        and body growth; the cognitive and physical development that 
        takes place at this stage will never occur to the same degree 
        again. Babies and toddlers who live in energy insecure 
        households are more likely to be in poor health; have a history 
        of hospitalization; be at risk of developmental problems and be 
        food insecure.''
                               conclusion
    There is no substitute for adequate Federal funding of LIHEAP. The 
authorized level of $5.1 billion would provide sufficient funds to 
increase grant levels to adjust for inflation in energy prices and 
allow States to reach out to eligible households who are not currently 
receiving assistance.
    Thank you for this opportunity to testify today. I would welcome 
any questions or requests for additional information on this important 
program.

    The Chairman. Well, I think that's very important to know 
and useful to understand. I think that's what's happening here 
in the State, I think they deserve credit for being involved, 
and that's certainly good but, obviously, we need to do a great 
deal more.
    Margaret, I saw earlier you had that yellow envelope in 
front of you.
    Ms. Gilliam. Yes, I do.
    The Chairman. Yes, you do.
    [Laughter.]
    You told me a little earlier that you were carrying your 
bills around in that, is that what you are doing, your heating 
bills?
    Ms. Gilliam. Yes, I am.
    The Chairman. I don't know if you wanted--you look like 
you've got it all marked down.
    Ms. Gilliam. During the summer months, I try to always 
prepare for the winter, something I've been doing now for the 
past 4 years and----
    Let me put my bifocals on so I can see.
    [Laughter.]
    My heating season consists, I would say, about 5 months a 
year. So, you know, saying this is what it cost me last year is 
not so. This is only for 5 months. Five months last year, up 
until April, the total amount I spent on fuel was $4,384.80. 
This year so far, up until yesterday, my heating bill is close 
to $4,000, and the last delivery I did get was through the Mass 
Energy Association, and I didn't have to pay for that one. That 
was actually a good donation. This is only January. So you can 
see where my concern is on it.
    I even called up Mr. Coard and asked dispirited enough to--
--
    The Chairman. I think you're going to get a call, Robert.
    [Laughter.]
    Ms. Gilliam [continuing]. And he'll say, ``Well, okay, I'll 
see what I can do.'' But I can't sit by the phone waiting to 
hear from him. I have to kind of sit there and get a little bit 
nervous, get a little anxious. All that you see that's on TV is 
not so. We weren't told up until the last moment that we 
weren't getting this government oil this winter. They were 
willing to give us, if we qualified and sent our applications 
in on time, first come, first served, we would get 100 gallons 
of oil. That's what happened. I called earlier in the season to 
make sure that I was able to get it, because as time goes by, 
the phone lines, you can't get through. So I did get only 100 
gallons of oil.
    I don't know where the statistics come from that we see in 
the newspapers or on TV. That's not so.
    I can spend at least, up until yesterday, with my figures, 
at least $700 a month for fuel only. And that's quite a bit. My 
Social Security cost-of-living increase this year was only $20. 
But my insurance premium went up. My co-pay for my medication 
went up. And other little things went up $2 or $3 here, and I 
ended up being able to have $1.24 left from that $20 increase 
that I had gotten at the beginning of the year.
    So it hurts. It really hurts. I'm not ready to give up my 
apartment yet, because I have two children that are counting on 
me. They are lovely children. They are two young teenagers, and 
they need me, and I need to be there for them. But I do need to 
reach out to the community to give me the help I've needed. 
Like I say, I'm not the only one out there. If I call--I don't 
even get upset when they tell me that they cannot--and just 
stay in and keep my eyes glued to the newspaper or TV to kind 
of get a feel of where can I go, and that's been kind of hard. 
But as Mr. Coard has stated, all that he has stated, it is 
facts, not fiction.
    The Chairman. Diane, is there anything you want to add to--
--
    Ms. Strollo. No, I think that was all I had to say today.
    The Chairman. I am very grateful to all of our panel, but 
to you two in particular. It's never easy to be able to talk 
about the kind of personal challenges that you are facing. I 
mean, it's not easy. I think, the best way we can ever express 
our appreciation is to do something about it. And that, you 
certainly have my commitment and pledge that we will.
    I want to thank all of you. It has been very useful and 
helpful. We touched on related subjects: are the people going 
to be able to hold on to their mortgages when they're running 
through these kinds of challenges, whether they're going to be 
able to get the food because of what's happening in these food 
banks; cost of their health care--an issue that's very close to 
my heart about what we're trying to do and how failure to deal 
with this issue undermines efforts that we are facing on that. 
We haven't talked about even tuition, how we're going to get 
these teenagers in school along with the increase of cost of 
tuition. These are all the central challenges that are just 
defining challenges about what kind of society we are and 
whether we really have a sense of community and whether we have 
a sense of fairness and decency.
    It is, I find, unconscionable about the profiteering that's 
going on at this time. I mean, it is unconscionable when you 
have these extraordinary--the core prices that are being set by 
a monopoly internationally and the OPEC and American companies 
are profiting in the most incredible way, and finding out that 
our fellow citizens who have been part of our community are 
faced with these kinds of challenges in terms of their own 
lives and in terms of their children's lives. Again, it's 
difficult, but I think any family that hears the story can 
certainly understand the cost in terms of anxiety for these 
family members as they're looking--thinking about this week, 
next week, the following week, every week, every day. This is 
something that's going on, and we, as a country and as a 
society, know how to deal with it, and we can deal with it, and 
the question is whether we will deal with it.
    Well, you have certainly my strong, strong commitment to be 
in the battle for it, and I am hopeful about the outcome, 
hopefully, the sooner, the better.
    I had a number of my colleagues that had good statements--
all who are strong supporters of our program, Senator Dodd of 
Connecticut, Bernie Sanders of Vermont who has been very, very 
involved and engaged in this and talked to me before being 
here, he is actually hearing some other committee business, 
otherwise, I think he would be here today; Senator Collins, 
Representative Markey, all of those, and my colleague, Senator 
Kerry, as well.
    So we have a very good group that are strongly committed, 
and we will make the battle, and we don't intend to lose.
    So we thank all of you for being here today.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

                 Prepared Statement of Senator Sanders

    Chairman Kennedy, thank you for holding this very important 
hearing. As you know, I had planned to be here with you this 
morning but due to the change in schedule, I unfortunately 
could not make it to Boston today. Thank you for including my 
statement in the record.
    Mr. Chairman, the skyrocketing price of home heating oil, 
propane, kerosene, natural gas and electricity is already 
stretching the household budgets of millions of families with 
children, senior citizens on fixed incomes and persons with 
disabilities beyond the breaking point.
    Today, there is one Federal program to help the most 
vulnerable people in this country stay warm this winter. That 
program is the Low Income Home Energy Assistance Program 
otherwise known as LIHEAP, and that program is needed now more 
than ever.
    Unfortunately, the spike in energy costs is completely 
eviscerating the purchasing power of this extremely important 
program in Vermont and other cold weather states across the 
country. If the President and the Congress do not act soon to 
confront this problem head-on, I fear for the public health and 
well-being of millions of our most vulnerable citizens.
    Community Action Programs throughout the State of Vermont, 
the agencies on the front lines of this energy crisis, have 
reported to me and my office about the severity of the heating 
crisis this winter. Let me just give you a few examples.
    As of last week, the Central Vermont Community Action 
Council (CVCAC) exhausted their entire $206,000 LIHEAP budget, 
and is currently negotiating with the State for more money. 
CVCAC has estimated that they will need an additional $400,000 
in LIHEAP funding to make it through the rest of the winter or 
more than double what they spent on LIHEAP all of last year. In 
central Vermont, CVCAC has reported heating oil prices as high 
as $3.73 a gallon and propane prices as high as $3.99 a gallon. 
These are astronomical prices. To put this in perspective, just 
four years ago it cost less than $1.50 a gallon for heating oil 
in my state. Today, it now costs about $500 for CVCAC to 
arrange a delivery of 125 gallons of emergency heating oil this 
winter, $200 higher than last year.
    The Champlain Valley Office of Economic Opportunity has 
reported to my office that if more LIHEAP funds aren't released 
soon, they will have exhausted all of their LIHEAP funding by 
the third week of February.
    Similar problems are also occurring in the northeastern, 
southeastern and southwest parts of Vermont. In other words, 
thousands of senior citizens on fixed incomes, low-income 
families with children, and persons with disabilities are in 
danger of going cold in my State of Vermont if we don't 
significantly increase LIHEAP funding soon. In the richest 
country on the face of the earth, we must not allow that to 
happen. We must ensure that no American has to make the 
unacceptable choice between heating their homes, putting food 
on the table or paying for other basic necessities.
    Mr. Chairman, as you know, on December 4, 2007, I 
introduced S. 2405, the Keep Americans Warm Act, to provide an 
extra $1 billion in emergency LIHEAP funding--money that would 
be in addition to the $2.4 billion provided in the Fiscal Year 
2008 Labor, Health and Human Services and Education 
Appropriations bill. I am pleased that the Omnibus 
Appropriations bill provided an extra $200 million for LIHEAP, 
but I strongly believe that LIHEAP still needs an additional 
$800 million. That is why I will be introducing an amendment as 
soon as possible to provide this much needed increase to 
LIHEAP.
    Mr. Chairman, I am deeply appreciative that you are a co-
sponsor of this amendment and the Keep Americans Warm Act. I am 
also delighted that this legislation has strong bipartisan 
support and has so far been endorsed by the AARP, the American 
Gas Association, and the National Energy Assistance Directors 
Association, just to name a few.
    Finally, Mr. Chairman, while I welcome the President's 
release of $450 million in emergency LIHEAP funding, everyone 
should know that the President still has $160 million at his 
disposal to distribute to states dealing with heating 
emergencies. Anyone paying attention to this issue can tell you 
that there is a home heating emergency in Vermont and 
throughout this country. The President should release all of 
this funding immediately targeted to those States most in need.
    Again, I thank the Chairman for holding this important 
hearing and allowing me this opportunity to submit this 
statement for the record.

                 Prepared Statement of Senator Collins

    As I travel around the State of Maine, I hear again and 
again about the high cost of energy causing a crisis situation 
for many Maine citizens. The cold weather combined with rapidly 
increasing prices for home heating oil, gasoline, diesel fuel, 
and other products refined from oil has created a huge burden 
for families throughout the Northeast. I am pleased that 
Chairman Kennedy and Ranking Member Enzi are bringing attention 
to this important issue with today's hearing.
    Earlier this month, the price of crude oil on the New York 
Mercantile Exchange briefly reached $100/barrel. This caps a 
rapid rise in prices from $71/barrel in August 2007, a sharp 
increase just at the time when heating oil demand rises. This 
winter, the Energy Information Administration estimates that 
households can expect to pay between 10 to 22 percent more for 
heating fuels than during the 2006-2007 winter. In my State of 
Maine, consumers face home heating oil prices 48 percent higher 
than this time last year ($2.26/gallon on January 8, 2007 
compared to $3.35/gallon as of January 9, 2008).
    That troubling rise touches virtually every aspect of the 
economy. Oil prices significantly affect the costs of heating 
homes, driving family cars and commercial trucks, running 
fishing boats, operating farm and logging equipment, and 
manufacturing operations.
    All of this has a particular impact on low-income citizens. 
Throughout my time in the Senate, along with a bipartisan group 
of Senators, I have fought for increased funds for the Low 
Income Heating Assistance Program, LIHEAP, the Federal program 
that provides States with funding to help low-income people and 
the elderly meet their energy needs. The LIHEAP program 
provides assistance for 48,000 Mainers each year and nearly 6 
million households nationwide.
    In September 2007, we secured $131 million in contingency 
LIHEAP funds. We also supported a nearly $400 million increase 
over last year for LIHEAP funding in the consolidated 
appropriations bill, signed by the President this month. 
However, this winter has brought a sharp increase in 
applications for LIHEAP assistance, but hundreds of those 
requests are being turned down due to a shortage of funds. For 
that reason, we requested that the President immediately 
release the $586 million that Congress put in the LIHEAP 
contingency fund. Maine needs at least $20 million of those 
additional contingency funds to keep abreast of the increased 
requests. Yesterday the President released $450 million of the 
LIHEAP contingency funds, with about $9 million going to Maine. 
While it is encouraging news that the Administration agreed to 
our request to release these funds, the need for additional 
assistance remains critical. This winter has brought a sharp 
increase in applications for LIHEAP assistance, but hundreds of 
those requests are being turned down due a shortage of funds. I 
will continue to seek the release of the remaining contingency 
funds. Citizens in the Northeast should not be forced to choose 
between medicine and food or heat, yet I continue to hear from 
people faced with exactly such dire choices.
    We also are working to obtain additional emergency LIHEAP 
funding for this winter. We are pursuing every possible 
option--for example we tried to include this funding in the 
Farm Bill the Senate debated in December. Unfortunately, we did 
not succeed, but this will remain a priority when the Senate 
reconvenes.
    Many causes appear to have contributed to the sharp rise in 
oil prices: increased global demand for crude oil, instability 
in the Middle East and Venezuela, supply decisions of the OPEC 
cartel, insufficient U.S. refining capacity, the declining 
value of the dollar, the timing of government purchases for the 
Strategic Petroleum Reserve, and speculative trading on futures 
markets. To minimize one of these causes, I, along with 
Senators Lieberman, Levin, and Coleman, recently urged the 
Department of Energy to temporarily suspend filling the 
Strategic Petroleum Reserve (SPR). It makes no sense whatsoever 
for the Department of Energy to purchase more oil for the SPR 
at a time when prices are at record highs. The Department 
should not be taking oil off the market and adding to pressures 
on supplies when consumers are struggling to heat their homes 
and fill their gas tanks.
    Our long-term challenge to address energy prices is, of 
course, to reduce our reliance on imported oil. We need to 
pursue the goal of energy independence just as fervently as the 
Nation embraced President Kennedy's goal in 1961 of putting a 
man on the moon. Energy independence and stable energy costs, 
and environmental stewardship, are goals that are within our 
reach, but they require a major national effort. The time to 
begin that effort is now.
    [Whereupon, at 12:32 p.m., the hearing was adjourned.]

                                    

</pre></body></html>
